                UNITED STATES GOVERNMENT
                National Labor Relations Board
                Office of Inspector General

Memorandum


June 2, 2010

To:      Bryan Burnett
         Chief Information Officer

From:    David Berry
         Inspector General

Subject: Inspection Report No. OIG-INS-59-10-02: Headquarters Productivity During the
         Government Closure in February 2010

       We initiated this inspection in February 2010, to determine the level of work that
occurred during the Government closure and to determine what worked well for those employees
and what suggestions the employees may have to improve their ability to perform work-at-home
during a Government closure.

        We found that, on average, 49.6 percent of the Headquarters employees who responded
to our survey engaged in work-at-home for about 3.32 hours on any given day of the
Government closure. In total, those employees reported working 1,867 hours. Another 6.4
percent of the Headquarters employees reported coming into Headquarters on at least 1 day
during the Government closure. Those employees reported working a total of 128 hours.


BACKGROUND

       During February 2010, the Office of Personnel Management closed the Government in
the Washington, D.C. metropolitan area for 4 days due to snowstorms. During that time, it was
widely reported that the cost of the Government closure was calculated as if no work was being
completed by Federal employees. It was also reported that methods used to compute the costs
were outdated, given that Federal employees can engage in work-at-home.

SCOPE

         This inspection was conducted using an electronic survey. We obtained a list of e-mail
addresses from the Office of the Chief Information Officer for employees at Headquarters, and
sent an e-mail message with an Internet link to the survey to the employees on the list. After the
initial e-mail message, we sent out two reminder e-mail messages to the employees who had not
yet responded. We also made corrections to the e-mail addresses for omissions that were
brought to our attention. After a correction was made, we sent the employees an individual
message with an Internet link to the survey. Through these efforts, we achieved an 87.9 percent
survey completion rate.

       This review was done in accordance with the Quantity Standards for Inspections issued
by the President's Council on Integrity and Efficiency.

RESULTS

        The following table shows the distribution of employees, by position, who responded to
the survey:

                                                                   Percentage
                                                                       of
                Employee Category                                  Employees
                Board Attorney                                       11.1%
                GC Attorney                                          17.3%
                Board Manager                                         7.0%
                Board Supervisor                                      4.6%
                GC Manager                                           14.1%
                GC Supervisor                                         7.8%
                Board Administrative                                  8.1%
                GC Administrative                                    11.1%
                Board Support Staff                                   7.0%
                GC Support Staff                                     11.4%
                Presidential Appointee                                0.5%

Productivity

        Of the employees who responded to our survey, 179 (49.6 percent) indicated that they
performed work-at-home on at least 1 day when the Government was closed in the D.C.
metropolitan area during the snowstorms. About 25 percent of the employees indicated that at
least one of the days that the Government was closed would have been a pre-scheduled work-at-
home day. The table below shows the daily average and total hours that employees engaged in
work-at-home during the closure:

                                                     Average
                                                      Hours       Total Hours    Number of
 Day                                                 Worked         Worked       Employees
 Monday                                                3.36           461          137
 Tuesday                                               3.23           442          137
 Wednesday                                             3.44           495          144
 Thursday                                              3.23           469          145




                                               2
       About 6 percent of the employees responded that, on at least 1 day, they came into
Headquarters during the Government closure. The table below shows the average and total
hours worked by employees who came into Headquarters:

                                                     Average
                                                      Hours       Total Hours     Number of
 Day                                                 Worked         Worked        Employees
 Monday                                                2.33           14              6
 Tuesday                                               3.92           47             12
 Wednesday                                             3.57           25              7
 Thursday                                              3.82           42             11

Use of Information Technology

       Over the last several years, the Agency has devoted significant resources to building and
maintaining its information technology infrastructure. As a result, many Agency systems can
now be accessed by employees from any location that has an Internet connection. For example,
the Agency's e-mail system is available to any computer or mobile device with Internet access.

        We found that 67 percent of the employees who responded to the survey have a
Government laptop computer that the employee could take home. Additional access to the
Agency's networks and systems is achieved through the use of an RSA token that allows remote
access through Aventail software. The RSA token and Aventail software can be used for either a
Government laptop or an employee's personal computer. Based on our survey results, we found
that about 44 percent of employees have an RSA token.

Laptop Preparedness

      The following table shows the frequency that employees take the Government laptop
computer home:

                                                                    Percentage
                                                                        of
                Frequency of Taking the Laptop Home                 Employees
                Almost daily                                          11.1%
                About once or twice a week                            21.4%
                More than twice a week                                 3.7%
                Almost never                                          63.8%

        Although the severity of the snowstorms and the duration of the Government closure
were unknown, there were indications that commuting to work after the storms would be
difficult and that there could be a closure or unscheduled leave. About 8 percent of the
employees responded that their manager encouraged employees to take the Government laptop
computers home prior to the snowstorms. Based on our survey results, we determined that
during the closure, almost 36 percent of the employees had a Government laptop computer at




                                                3
home. The following table shows the distribution of whether the employee took a Government
laptop computer home prior to the Government closure, and, if so, why:

                                                                                Percentage
                                                                                    of
      Taking the Laptop Home during the Snowstorm                               Employees
      I took it home because I almost always take it home.                        14.0%
      I wanted to make sure I could work if I was not able to come into the
                                                                                     21.8%
      office.
      I did not take the Government laptop computer home.                            64.2%

      Of the employees who did not take the Government laptop computer home prior to the
snowstorm, about 42 percent responded that they would be more inclined to do so in the future.

Equipment Used and Systems Accessed

       The tables below show what information technology equipment was reported as being
used and what systems were accessed by the employees who performed work-at-home during the
Government closure:

                                                                        Percentage
                                                                            of
                 Equipment Used                                         Employees
                 Laptop with remote access                                33.1%
                 Laptop without remote access                             10.3%
                 Remote access from personal home computer                48.6%
                 Blackberry                                               32.0%
                 None                                                     14.3%



                                                                        Percentage
                                                                            of
                 Agency Systems Accessed                                Employees
                 E-mail                                                   95.4%
                 NxGen Case Management                                     7.4%
                 eRoom                                                    17.1%
                 G: and H: drives                                         22.3%
                 Legal Research                                           17.7%
                 Momentum Financial                                        0.0%
                 FPPS Payroll                                              1.7%
                 Other                                                    30.3%

        For the "Other" category, employees noted: legal research; the Agency's Internet and
Intranet sites; electronic travel system; and CATS.

Employee Observations

      We also asked employees what worked well for them and what the Agency could do to
improve the employee's ability to perform work-at-home. We received 133 responses to this

                                                  4
question, and of those who responded, 87 employees indicated that everything worked well or
had no suggestions. Among the employees who have a Government Blackberry, 13 noted that
the Blackberry was useful during the Government closures. Some of the suggestions also noted
that more planning or information about management's expectations would have been helpful.
The table below provides the general nature of the suggestions with regard to information
technology issues:

                                                                     Number of
                Suggestions                                          Employees
                Would like a Blackberry                                       4
                Would like an additional or better laptop computer           11
                Would like Aventail software/RSA token                        8
                Provide refresher training                                    2
                Could not print from the laptop computer                      4
                Internet access issues                                        3
                Had difficulty using Aventail                                 7
                More Access (for example: Momentum)                           4




                                                  5
